                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




          This investigation was opened pursuant to a proactive review of Cooperative Agreements. Initial
          review of a Cooperative ~greement'with a public school system2revealed that the school system
          told NSF that funds allocated were not expended due to a lack of participation by teachers in
          workshops. One month later, the school system requested funds3 for reimbursements on its


          Investigation, which included a review of the financial records, and a site visit to the awardee,
          revealed the awardee had drawn-down funds in excess of what it certified as expenses to this
          Cooperative ~ ~ r e e m e n t . ~

          The awardee sent a check to NSF for all of the excess funds they had inappropriately drawn-


          In light of the above, no fbther investigative effort is necessary in this matter.

          Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
